November 30, 2020
BY FEDERAL EXPRESS
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Supreme Court Building
1 First Street, N.E.
Washington, D.C. 20543
Re:

ANDY WILLIAMS v. UNITED STATES OF AMERICA
20-

Dear Mr. Harris:
Enclosed is a copy of a petition for a writ of certiorari
and an attached appendix on behalf of Andy Williams, an
application for leave to proceed in forma pauperis, and a
certificate of service.
One copy of the petition and appendix and one of the
application for in forma pauperis relief have been served by
federal express mail on the Office of the Solicitor General of
the United States.
Respectfully yours,

DARRELL FIELDS
Assistant Federal Defender
DF/gv
Enclosures
cc:

Honorable Jeffrey B. Wall
Acting Solicitor General of
the United States
Department of Justice
950 Pennsylvania Avenue, N.W.
Room 5614
Washington, D.C. 20530-0001

